<html>
<title> - SMALL BUSINESS PRIORITIES FOR THE 116TH CONGRESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


            SMALL BUSINESS PRIORITIES FOR THE 116TH CONGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           FEBRUARY 13, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-005
             Available via the GPO Website: www.govinfo.gov
             
             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-125                        WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1077607f507365636478757c603e737f7d3e">[email&#160;protected]</a>                            
             
           
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          ANDY KIM, New Jersey
                         SHARICE DAVIDS, Kansas
                          JARED GOLDEN, Maine
                          JASON CROW, Colorado
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                                 VACANT
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                           
                           
                           
                           C O N T E N T S

                           OPENING STATEMENT

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     2

                               WITNESSES

Mr. John Arensmeyer, Founder & CEO, Small Business Majority, 
  Washington, DC.................................................     4
Ms. Sabrina Parsons, CEO, Palo Alto Software, Eugene, OR.........     6
Mr. J. Kelly Conklin, Co-Owner & Founder, Foley Waite LLC, 
  Kenilworth, NJ.................................................     8
Mr. Thomas M. Sullivan, Vice President, Small Business Policy, 
  Chamber of Commerce of the United States of America, 
  Washington, DC.................................................     9

                                APPENDIX

Prepared Statements:
    Mr. John Arensmeyer, Founder & CEO, Small Business Majority, 
      Washington, DC.............................................    40
    Ms. Sabrina Parsons, CEO, Palo Alto Software, Eugene, OR.....    47
    Mr. J. Kelly Conklin, Co-Owner & Founder, Foley Waite LLC, 
      Kenilworth, NJ.............................................    53
    Mr. Thomas M. Sullivan, Vice President, Small Business 
      Policy, Chamber of Commerce of the United States of 
      America, Washington, DC....................................    59
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Employees and Consumers Benefiting from Tax Reform...........    65
    Statement of Hon. Jim Hagedorn...............................   119
    Recommendations for Subcommittees of the U.S. House Committee 
      on Small Business..........................................   121
    U.S. Chamber Statement on the Green New Deal.................   172

 
            SMALL BUSINESS PRIORITIES FOR THE 116TH CONGRESS

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2019

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
2360, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Kim, 
Davids, Golden, Crow, Veasey, Evans, Schneider, Delgado, 
Houlahan, Chabot, Radewagen, Kelly, Balderson, Hern, Hagedorn, 
Stauber, Burchett, Spano, and Joyce.
    Chairwoman VELAZQUEZ. Good morning. The Committee will come 
to order.
    I thank everyone for joining us this morning, and I want to 
especially thank the witnesses for being here today.
    As I am sure we all agree, small businesses are critical to 
the economic vitality and strength of our country. From the 
tech company that started as an idea between two friends, to 
more established Main Street retailers, or the local restaurant 
looking to expand operations, all play an important role in 
generating employment opportunities for our communities whether 
they are in rural or urban America.
    Starting a small business is what the American Dream is all 
about. But unfortunately, as recent economic data suggests, 
small firms are not without their own challenges. According to 
ADP reports, small employers are lagging behind their larger 
counterparts when it comes to hiring. Small business employment 
grew only half a percent year over year, compared to 1.7 
percent for all companies tracked by ADP. Declining confidence 
levels over economic uncertainty is also weighing heavily on 
small firms.
    That is why today's hearing is so timely. It will allow us 
to gain valuable perspectives on how to best help entrepreneurs 
continue to do what they do best, invest in themselves, their 
communities, and their workers.
    Today, we are joined by a distinguished panel of witnesses. 
This hearing is an opportunity to listen to their insights into 
the challenges facing small businesses, and specifically, how 
Congress can prioritize their needs. While the Small Business 
Administration and other partners provide extensive support, 
there is still more we as lawmakers can do to ensure their 
success. As we heard at last week's subcommittee hearing, 
access to capital remains an ongoing problem for countless 
small businesses regardless of their size or location.
    But this is not the only issue facing small firms. As the 
ADP numbers indicate, we are still finding that many business 
owners struggle to find qualified workers to fill job openings. 
This is particularly true in areas that have been ravaged by 
the ongoing opioid crisis or there has been a decline in 
population due to a lack of opportunities.
    Supporting policies to increase educational initiatives, 
develop a skilled workforce, and allow small employers to offer 
competitive benefits and wages to their workers are all key to 
leveling the playing field for small businesses.
    When it comes to taxes, entrepreneurs in every sector 
deserve more certainty than they are currently being offered. 
We can achieve this by taking steps to streamline the Tax Code 
and provide greater retirement options for small business 
owners and their employees. Finally, we also know the 
importance of providing increased access to contracting 
opportunities. This is especially true as Congress aims to 
tackle infrastructure reform. It is imperative that in this 
process we consider the economic potential that comes with 
ensuring small firms operating in sectors such as construction, 
engineering, and architecture, have a fair shot at receiving 
federal contracts.
    Today, the small business priorities we address will help 
us set our agenda moving forward this Congress. It is my hope 
that we will have a productive discussion.
    With that, I thank each of the witnesses for joining us 
today, and I look forward to your testimony.
    I would like to yield to the Ranking Member, Mr. Chabot, 
for his opening statement.
    Mr. CHABOT. Thank you, Madam Chairwoman.
    There are more than 30 million small businesses all across 
this country. We call them the backbone of our national economy 
because they are fundamental to every community all over 
America. They create most of the new jobs in the economy, for 
example.
    Small businesses make up 99-99/100 percent of all firms. 
They employ nearly half of private sector employees and create 
two out of every three net new jobs. We call small businesses 
the lifeblood of our national economy because they are the 
essence of American strength and vitality. From entrepreneurs 
to generational mom and pop stores, small business owners 
personify diversity, creativity, and grit, essential 
ingredients of the American spirit.
    During my tenure on this Committee, one that spans over 2 
decades now, we have heard from thousands of small business 
owners, from economists and advocates, each with suggestions on 
how to improve the way small businesses perform. Our success at 
this Committee depends on open and honest dialogue with small 
businesses, industry leaders, and government officials. Members 
of this Committee will certainly have differing opinions on 
priority problems and policy solutions, but as we maintain our 
spirit of bipartisanship, I am confident that we will find more 
areas of common ground.
    Today, as we outline our policy agenda, we begin a search 
for small business issues that we can tackle together. Recent 
tax and regulatory relief has spurred economic growth and 
generated high levels of optimism within the small business 
community. In 2018, small business owners reported higher sales 
earnings, investments, and hiring. Bolstered by their 
confidence, they are looking to expand. At this Committee, we 
know that thriving small businesses create more jobs, 
revitalize communities, and sustain our national economy.
    Our efforts should focus on how we, the government, can 
support small business growth instead of constraining it with 
more red tape.
    In the 116th Congress, I look forward to continuing our 
rigorous oversight of the SBA, the Small Business 
Administration, and their contracting programs and regulatory 
regimes. We are the stewards of taxpayer dollars. When federal 
programs operate efficiently and effectively, everyone 
benefits.
    Madam Chairwoman, I am proud of the legislative successes 
that we have achieved together at the Small Business Committee, 
and I look forward to many more in the 116th Congress.
    I would like to thank our witnesses for being here, all 
four of them, and I yield back.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot. The gentleman 
yields back.
    If committee members have an opening statement prepared, we 
would ask that they be submitted for the record.
    I would like to take a minute to explain the timing rules. 
Each witness gets 5 minutes to testify and the members get 5 
minutes for questioning. There is a lighting system to assist 
you. The green light will be on when you begin, and the yellow 
light comes on when you have 1 minute remaining. The red light 
comes on when you are out of time, and we ask that you stay 
within the timeframe to the best of your ability.
    I would now like to introduce our witnesses.
    Our first witness is Mr. John Arensmeyer. Mr. Arensmeyer is 
founder and CEO of Small Business Majority, a national small 
business advocacy organization focused on empowering America's 
entrepreneurs to build a thriving and inclusive economy. Prior 
to starting Small Business Majority, Mr. Arensmeyer founded ACI 
Interactive, an award-winning, international interactive 
communications company. Welcome.
    Our second witness is Ms. Sabrina Parsons. Ms. Parsons is 
the CEO of Palo Alto Software, a business and marketing plan 
software company based in Oregon. As a staunch supporter of 
entrepreneurs, she is regularly invited to participate as a 
judge for business plan competitions across the U.S., as well 
as to speak on business planning, leadership, and women in 
technology.
    Our third witness today is Mr. J. Kelly Conklin. Mr. 
Conklin lives in Glen Ridge, New Jersey, with his wife and 
business co-owner. In 1968, they founded Foley Waite, LLC, an 
architectural woodworking firm located in Kenilworth, New 
Jersey. Mr. Conklin is Chairman of the Executive Committee of 
the Main Street Alliance, a national network of over 30,000 
small business owners. He also serves on numerous boards, 
including 14 years on the Glen Ridge Planning Board.
    And I now would like to yield to our Ranking Member, Mr. 
Chabot, to introduce our final witness.
    Mr. CHABOT. Thank you, Madam Chair.
    I would like to introduce today's final witness, Thomas 
Sullivan. Mr. Sullivan is the vice president of Small Business 
Policy at the U.S. Chamber of Commerce. In this capacity, he 
manages the Chamber's Small Business Council, which facilitates 
small business input and involvement in Chamber activities. Mr. 
Sullivan has advocated for small businesses in the public, 
private, and nonprofit sector. Most notably, he served as Chief 
Counsel for Advocacy at the SBA under President George W. Bush. 
Tom is an expert on small business policy and a long-time 
friend of this Committee. Thank you for joining us today. We 
appreciate it, and I yield back.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Arensmeyer, you are recognized for 5 minutes.

  STATEMENTS OF JOHN ARENSMEYER, FOUNDER & CEO SMALL BUSINESS 
  MAJORITY; SABRINA PARSONS, CEO PALO ALTO SOFTWARE; J. KELLY 
CONKLIN CO-OWNER & FOUNDER FOLEY WAITE LLC; THOMAS M. SULLIVAN, 
 VICE PRESIDENT, SMALL BUSINESS POLICY, CHAMBER OF COMMERCE OF 
                  THE UNITED STATES OF AMERICA

                  STATEMENT OF JOHN ARENSMEYER

    Mr. ARENSMEYER. Thank you, Chairwoman Velazquez, Ranking 
Member Chabot, and distinguished members of the Committee. 
Thank you for inviting us to speak with you today.
    As a long-time small business owner, I founded Small 
Business Majority 13 years ago to empower America's 
entrepreneurs to build a thriving and inclusive economy.
    We have a network of 58,000 small business owners across 
the country, with eight regional offices and partnerships with 
over 1,000 business organizations. We advocate for smart public 
policy solutions and deliver information and resources to 
entrepreneurs with a particular focus on underserved 
entrepreneurs--women, people of color, immigrants, and rural 
small business owners.
    We have created a policy agenda that focuses on seven 
topics--access to capital, health care, retirement and other 
portable benefits, entrepreneurship and the freelance economy, 
supporting a skilled small business workforce, infrastructure 
and economic development, and taxes.
    I am going to address the first three issues briefly today 
but I am happy to answer questions about any one of those 
topics.
    On access to capital, it is no secret that small business 
owners face significant hurdles accessing capital. Small 
businesses' share of total bank loans fell from 31 percent in 
2010 to 21 percent in 2016, while the average small business 
loan amount has steadily increased, making loans less available 
for the smallest businesses.
    Moreover, women business owners get nearly 50 percent less 
in funding than their male counterparts. Similarly, a SBA study 
found African American and Hispanic business owners were more 
likely to report unmet credit needs.
    New alternative and online lending opportunities have 
sprung up to fill this market need. This is a potentially 
positive development for small businesses. However, alternative 
sources of financing operate in an almost entirely unregulated 
market, making many small business owners vulnerable to 
predatory practices. This new industry must be built on 
transparency, fairness, and putting the rights of borrowers at 
the center of the process.
    A desire to encourage responsible innovation in online 
lending is what drove us to cofound the Responsible Business 
Lending Coalition (RBLC) in 2015. The RBLC has published the 
Small Business Borrowers' Bill of Rights, a guide for 
responsible small business lending standards that more than 90 
fintech lenders, banks, and other groups have signed onto. The 
RBLC has also produced policy recommendations for a national 
Small Business Truth in Lending Act modeled on a law enacted 
last year in California.
    Other policy recommendations include quadrupling annual SBA 
lending guarantees from $25 billion to $100 billion, thereby 
increasing the volume of small business loans guaranteed by the 
SBA to $1 trillion over the next decade. Increasing loan 
guarantee percentages from 85 percent to 90 percent for loans 
up to $150,000, and from 75 to 85 percent for loans between 
$150,000 and $700,000. Dramatically expanding the annual budget 
of the CDFI Fund from $250 million to $1 billion, and 
prohibiting confessions of judgment in which borrowers agree in 
advance to lose any dispute with the lender.
    On health care, since its enactment, the ACA has provided 
health care to 24 million individuals who otherwise could not 
access coverage, many of whom work for small employers or are 
themselves small business owners or self-employed individuals. 
What is not well understood is that more than half of all ACA 
marketplace enrollees fall into these entrepreneurship 
categories.
    So we must do three things: strengthen our healthcare 
markets, expand health coverage, and reduce drug prices while 
containing other inefficient costs in the system. Our 
recommendations include maintaining protections for individuals 
with preexisting conditions, addressing the rising cost of 
prescription drugs, protecting consumers from surprise building 
by limiting patient out-of-network cost-sharing. Blocking the 
extension of both short-term health insurance plans and 
association health plans, both of which offer inadequate 
coverage and remove younger, healthier individuals from the 
general pool, thus increasing costs for everybody else and 
destabilizing markets, allowing people to buy into Medicaid 
and/or Medicare, guaranteeing cost-sharing subsidies to 
insurers, and creating a reinsurance program.
    Finally, we need a modernized benefits infrastructure that 
serves today's independent entrepreneurs and small business 
owners who do not work for large corporations. We recommend the 
following: supporting Federal efforts to establish a publicly 
administered retirement savings program, like the Secure Choice 
programs in some states and make participation open to the 
self-employed; passing the FAMILY Act to establish a national 
program that provides partial wage replacement for small 
business employees and the self-employed; and there are a 
number of other recommendations in our policy agenda.
    Finally, Congress must focus on the particular needs of 
rural entrepreneurs who start businesses at higher rates than 
their urban counterparts and have higher 5-year business 
survival rates while facing a unique set of challenges. 
Yesterday, we released a report on rural entrepreneurship, a 
copy of which we will provide to the Committee.
    Thank you for the opportunity to comment on these important 
issues. I look forward to answering your questions.
    Chairwoman VELAZQUEZ. Thank you, Mr. Arensmeyer.
    Ms. Parsons, you are recognized for 5 minutes.

                  STATEMENT OF SABRINA PARSONS

    Ms. PARSONS. Chairwoman Velazquez, Ranking Member Chabot, 
and members of the Committee, thank you for the invitation to 
testify today about the needs and policy priorities of small 
businesses around the United States.
    My name is Sabrina Parsons. I became CEO of Palo Alto 
Software in 2007 and have grown the business to over 70 full-
time employees. I am also an active supporter of entrepreneurs 
in Oregon where my company is based, and a member of Main 
Street Alliance, a network of 30,000 small business owners.
    The policy priorities I am going to discuss with you today 
support the family life of both small business owners and 
employees, invest in entrepreneurship of women and people of 
color, boost wages, and protect the immigrant members of our 
communities.
    Small businesses need national paid family medical leave. 
Eighty-three percent of the U.S. workforce lacks employer-
provided, paid family leave care for a new child or a seriously 
ill loved one, and more than 60 percent do not have employer-
provided temporary disability insurance to protect them when 
they need time away from their jobs to address a serious health 
issue or injury.
    Although Palo Alto Software is now able to provide paid 
leave, most small businesses lack the scale, expertise, and 
resources for such a policy. When my company was smaller, we 
could not afford the comprehensive paid leave we can today. And 
in other industries it is even harder. For example, it is very 
difficult in the restaurant industry where profit margins are 
very narrow.
    Access to paid leave should not depend on the size of 
business or where a person lives and works. We need a Federal 
program that gives all worker and small business owners the 
kind of leave that Palo Alto Software offers.
    For that reason, I ask you to support the Family Act, which 
would create an affordable, self-sustaining national family and 
medical leave insurance program, making paid leave affordable 
and feasible for small businesses.
    Small businesses need a strong public investment in child 
care. As the mother of three, I know the impact of family 
responsibilities on employees and small business owners alike. 
The dearth of affordable child care provided by well-
compensated professionals frequently stands in the way of small 
business success and growth.
    The astronomical costs of child care put parents in a bind. 
Nearly one in three families report spending 20 percent or more 
of their annual household income on child care. In 28 states, 
including my home state of Oregon, child care costs more than 
in-state public college tuition.
    We ask you to support Child Care for Working Families Act, 
which would make unprecedented investments to ensure all 
children have access to high-quality, early education, and 
ensure that people who work in child care and earn a living 
wage.
    Boosting wages helps small businesses. The starting salary 
for any employee at my company is $16 an hour, even customer 
service, which generally pays very low wages. Given what it 
takes for a family to make ends meet in Eugene, Oregon, I feel 
strongly that people need to be paid living wages. Raising 
wages is also better for business. When you pay $7 an hour, you 
experience employee turnover over a period of 2 or 3 years that 
ultimately can devastate a small business's bottom line.
    I understand that raising the minimum wage is a source of 
fear for many small businesses. However, the financials will 
work out and make businesses stronger, and I believe this is an 
area of tremendous opportunity for the SBA and others to 
provide better financial management training, education, and 
assistance to small businesses.
    Fair treatment of immigrants is a small business issue. I 
am the daughter of an immigrant mother and a U.S.-born father. 
I was born in Mexico City and lived there until I was seven and 
spoke Spanish before I spoke English. My mother recently became 
a citizen of the United States. Humane and just immigration 
policy is important to me as the daughter of an immigrant, as a 
mother and community member, and as a businesswoman.
    We owe it to all immigrants and ourselves to adopt an 
immigration policy that respects family and the basic tenets of 
freedom. Please put an end to family separation. Please do 
whatever possible to bring healing to the families torn apart 
by this policy. And please ensure that the immigrant business 
owners, other immigrants in our community, and those who are 
seeking refuge here have a fair opportunity to live, work, and 
develop businesses here. The facts show these immigrants bring 
more positive than negative to our country and are an integral 
part of who America is.
    Lack of equitable capital continues to hamper small 
businesses, particularly for women and people of color. The 
Wall Street Journal reports that Black-owned businesses 
received only 11 percent of Small Business Administration loans 
in 2008, and only 2.3 percent of those SBA loans in 2013. Women 
entrepreneurs also experience disparities. A study by 
Biz2Credit found that women-owned firms had a loan approval 
rate that was 15 to 20 percent lower than their male 
counterparts.
    I urge you to pass measures to eliminate racial and gender 
discrimination in small business lending and recognize that 
there is a need to open access to affordable capital for small 
businesses, particularly those owned by entrepreneurs who are 
women and people of color. I also ask you to bring 
transparency, oversight, and fair terms to all forms of small 
business lending, whether bank or non-banking loans.
    I appreciate the opportunity to share concerns and policy 
priorities for small business owners.
    Thank you, and I look forward to answering your questions.
    Chairwoman VELAZQUEZ. Thank you, Ms. Parsons.
    Mr. Conklin, you are recognized for 5 minutes.

                 STATEMENT OF J. KELLY CONKLIN

    Mr. CONKLIN. Thank you, Chairwoman Vasquez, Ranking Member 
Chabot, members of the Committee.
    I appreciate the invitation to testify here today on behalf 
of real small business people like me. We do form the backbone 
of Main Street communities across the country.
    My name is Kelly Conklin, and I am Chair of Main Street 
Alliance. Our organization creates opportunities for small 
business owners to speak for ourselves on public policy issues 
that impact our businesses, our employees, and the communities 
we serve.
    In 1978, my wife and I founded Foley Waite, an 
architectural woodworking firm. She was on one end of a sheet 
of plywood and I on the other, working out of an 800 square 
foot shop we lived over. Now our company owns a 13,600 square 
foot building and employees 14 people.
    Real small businesses like mine need policies, such as 
universal health care, a fair tax system, equitable access to 
capital, and paid family and medical leave, that serve the 
needs of small business and that take into account the ways in 
which racial and gender inequity serve as gatekeepers that 
structure the small business sector.
    Small businesses need high-quality--we are going to say 
this over and over again today--high-quality, publicly-funded, 
universal health care. The Affordable Care Act was an important 
step in the right direction for small businesses but there is 
much, much more Congress needs to do.
    With the ACA, I saw my premiums finally begin to stabilize. 
Then Republican leaders began massaging the ACA and creating 
uncertainty. We know this has increased premiums in the 
marketplace for individuals. April 15th is a day I dread, not 
because it is Tax Day but because that is when I will find out 
what this year's insurance premiums will be, how much they will 
go up. My business went from providing 100 percent of coverage 
for our employees to 85 percent, and now we are at 80 percent. 
And we spend $8,000 a month on health care, a real hit. If my 
wife and I could put half that money into our business, we 
would have one of the most modern, well-equipped architectural 
woodworking businesses on the East Coast.
    We need universal, high-quality, publicly-funded coverage 
that is affordable for everyone. This is not too expensive. The 
private sector is delivering the most expensive and inefficient 
health care in the world. The cost of doing nothing is too 
great.
    Our Tax Code should prioritize strong public investment 
over corporate profits. The Tax Cuts and Jobs Act passed in 
2017 hurts small businesses. The Joint Committee on Taxation 
found that 61 percent of the benefits of this deduction will go 
to the richest 1 percent of pass-through business owners by 
2024. Just 4 percent of the bottom two-thirds will benefit.
    The revenue lost to tax breaks for the very wealthy and big 
corporations are made up for on Main Street with deteriorating 
infrastructure and loss of services. We ask Congress to repeal 
the Tax and Jobs Act with its tax giveaways to large 
corporations and the very rich. Instead, create a tax system 
that ensures the rich and big corporations pay their share of 
taxes. Let us close corporate tax loopholes and create a more 
progressive income tax structure.
    Small businesses need equitable access to affordable 
capital and protection from predatory financing. Bank lending 
to small businesses has not fully recovered since the 
recession. There is compelling evidence pointing to a 
persistent racial discrimination and redlining in small 
business bank lending.
    The Minority Business Development Agency found that 
business owners of color are 2.5 times more likely to be denied 
when applying for traditional business loans compared to white 
business owners. A 2014 study reported that women entrepreneurs 
receive 16 percent of conventional bank loans and 17 percent of 
SBA loans, even though they represent 30 percent of small 
businesses.
    We need lawmakers to hold banks accountable for 
discrimination in lending and ensure entrepreneurs of color and 
women get a real opportunity to start and grow their 
businesses. Protect small business borrowers from predatory 
lending with transparency in lending, reasonable terms and 
underwriting, and honest practices.
    Families are part of our bottom line. Only 17 percent of 
the U.S. workforce have paid family leave through their 
employers, and less than 40 percent have personal medical leave 
through an employer-provided temporary disability program.
    In New Jersey, we are fortunate to have had a state paid 
program for more than 8 years, and I have encouraged two of my 
employees to use it, one after his mother suffered a severe 
brain injury and one after an employee's wife received a cancer 
diagnosis.
    The Family Act will create a national paid family and 
medical----
    Chairwoman VELAZQUEZ. Mr. Conklin, your time has expired. 
During the question and answer period you will have some time 
to expand.
    Mr. CONKLIN. Okay. Thank you.
    Chairwoman VELAZQUEZ. Thank you for your testimony.
    Mr. Sullivan, you are recognized for 5 minutes.

                STATEMENT OF THOMAS M. SULLIVAN

    Mr. SULLIVAN. Thank you, Chairwoman Velazquez, Ranking 
Member Chabot, and members of the Committee, for the 
opportunity to outline the U.S. Chamber of Commerce's small 
business priorities.
    Ninety-seven percent of Chamber members are small 
businesses, and the Small Business Council that I head works to 
ensure their views are considered as part of our policymaking 
process. In addition to receiving input from our Small Business 
Council, we learn a great deal from our quarterly small 
business index and from our engagement with small businesses 
where they live and work at our regional small business 
summits.
    The priorities that I will outline really have at the top 
of the list workforce, the need for workers. The top priority 
of the Chamber is to address the worker shortage that is making 
it difficult for small businesses to grow.
    The top issue for the small businesses I talk with every 
day is finding, recruiting, hiring, and retaining qualified and 
willing employees. There is really no single piece of 
legislation that can solve Main Street's challenge of a worker 
shortage. However, we believe there are legislative and 
business leadership solutions that will go far in addressing 
the need for workers, and those are outlined in more detail in 
my written statement.
    Immigration. The Chamber has long supported common sense 
reforms to our Nation's broken immigration system. And when 
businesses large and small are prevented from growing because 
of a lack of workers, our call for reform is even more urgent.
    As far as education goes, the Chamber supports high-
quality, lifelong learning to ensure all Americans have the 
opportunity to reach their potential. There are several 
legislative initiatives to expand high-quality education that 
we support, and expand and improve training and retraining 
programs that include employer-led ``earn and learn'' 
opportunities like apprenticeships.
    Competing for talent and retention of employees. The 
Chamber believes that providing small businesses with 
healthcare coverage options and retirement options for their 
employees are key ingredients for growth and allow them to 
compete for and retain top talent.
    Our local and state chamber of commerce partners are 
excited about new opportunities to provide healthcare coverage 
and retirement benefits for their small business members, and I 
am hoping in the question and answers that I would be able to 
detail some of those opportunities.
    Access to capital. It is no surprise that this Committee is 
already off to a good start when it comes to forwarding 
bipartisan legislation that will help small businesses access 
the capital they need to start, sustain, and grow. We hope that 
H.R. 116, the Investing in Main Street Act, is taken up by the 
Senate and signed into law. And we look forward to working with 
this Committee on additional legislation that will help provide 
access to capital for startups and small businesses.
    Regulatory relief. SBA's Office of Advocacy acts as the 
watchdog for small business within the Federal Government and 
oversees implementation of the Regulatory Flexibility Act, 
which is under this Committee's jurisdiction. I was honored to 
lead that office from 2002 to 2008, and I appreciate this 
Committee's support for that office and its mission.
    One of our priorities for this Congress is to work with you 
on legislation that can improve that office's work to the 
benefit of our Nation's small business community.
    Infrastructure. The Chamber is buoyed by the bipartisan 
agreement that seems to surround infrastructure, and we 
encourage you to help the Committees of jurisdiction to get the 
legislation moving.
    As far as working with other Committees, from 
Infrastructure to Health Care, to Trade and Tariffs, to Tax 
Policy, many of the Chamber's small business priorities fall 
within the legislative jurisdiction of Committees other than 
this one. To the credit of you all, you have a history of 
helping those Committees understand the unique concerns of 
small businesses. I compliment your vigilance in this area and 
want to stress the importance of continued cross-Committee work 
when it comes to small business priorities. At the Chamber, we 
are similarly dedicated to advancing these and other policies 
that can benefit Main Street businesses, fuel the economy, 
provide for individuals and families, and grow communities. 
Thank you.
    Chairwoman VELAZQUEZ. Thank you, Mr. Sullivan.
    I recognize myself for 5 minutes. And I would like to 
address the first question to the members of the panel.
    As a staunch supporter of entrepreneurs, I want to make 
sure that I am doing everything within my power to provide the 
tools to help small businesses and the business community to 
turn an idea into a flourishing business. So as an active 
member of the entrepreneurship community, what are some of the 
opportunities and challenges that you see on the horizon? What 
will be that one issue that you feel will make a difference in 
empowering that small individual to turn an idea into a 
startup?
    Mr. Arensmeyer?
    Mr. ARENSMEYER. Well, first, I think we need to make sure 
we are connecting small business owners and entrepreneurs with 
all the programs that are out there. We have a very extensive 
entrepreneurship program across the country where we not only 
provide education but we provide resources both online and 
face-to-face. But most importantly, we connect people with 
resources that are out there, resources from the SBA, resources 
from the U.S. Department of Agriculture. I am pleased to see 
the Rural Entrepreneurship Program has continued in the recent 
Farm Bill. So a lot of it is just connecting people with 
resources.
    We need to make sure that they are connected to the local 
community banks. The problem is there is no one solution. We 
have to, when it comes to lending, you know, there are 7(a) 
loans. There are other microloan programs, et cetera, but there 
is no sort of one place where a small business owner can go to 
get everything.
    We are optimistic that some of the technology embedded in 
some of the fintech products can be useful but we cannot let 
those expand without very strict guidelines around 
transparency, around underwriting rules because literally what 
is happening is a lot of those small business owners are being 
taken advantage of much the way individuals get taken advantage 
of by payday loans. So it is a combination of making sure 
people have access to resources and setting up policies to 
ensure maximum access.
    Chairwoman VELAZQUEZ. Thank you.
    Ms. Parsons, I know that you care deeply about providing a 
level playing field for women entrepreneurs, and we know that 
women receive nearly 50 percent less funding compared to male-
owned businesses. How do you see this committee enacting 
legislation or how can we enhance the programs so that we 
provide that level playing field for women?
    Ms. PARSONS. Yeah, thank you. I think that is a great 
question.
    Right now, if you want to get a loan for your small 
business startup, and that is usually where people are going, 
we have this system in place where banks, including SBA-backed 
loans, are asking entrepreneurs to have 2 years in business and 
$250,000 of revenue as a starting point, which clearly if you 
are a startup entrepreneur you have neither, which then means 
people are using personal assets to start their businesses. And 
this is why women and people of color are falling behind. All 
the statistics show that women have less access to personal 
assets and personal guarantees. And so you just have this 
catch-22 of the same entrepreneurs who have access to resources 
are the only ones who can start businesses.
    So the first thing that has to happen I think is the 
recognition that where we are today and how we lend simply 
leaves behind people who do not have access to personal assets 
and who do not have personal wealth. And that would be the 
first thing.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. Conklin?
    Mr. CONKLIN. Well, the single biggest problem we face, and 
it has been an ongoing problem throughout the 40 years we have 
been in business, is manpower. Skilled manpower. Access to 
people who are trained and knowledgeable and can step into our 
facility and safely do the work we do. And there is a focus I 
think both educationally and culturally in our society that is 
blind--to I think a very good opportunity for people to make 
very good living--doing the kind of work we do. The focus on 
STEM in education and the abandonment of training folks in the 
trades and crafts over the course of the time we have been in 
business. I went to the School for American Craftsmen. I do not 
think it exists anymore.
    Chairwoman VELAZQUEZ. Thank you.
    Mr. CONKLIN. And my wife went to Philadelphia College of 
Art. So we have to have workers and we have to have an 
immigration policy that recognizes that the skillsets necessary 
for small businesses to function include using tools, like saws 
and chisels and hammers.
    Chairwoman VELAZQUEZ. Thank you, Mr. Conklin.
    Mr. Sullivan, I will come back to you in the second round. 
My time has expired and now I recognize the Ranking Member for 
5 minutes.
    Mr. CHABOT. Thank you, Madam Chair.
    It is a relatively new concept but I would like to get each 
of your input or opinion on this briefly. Would you be inclined 
to be for or against the so-called Green New Deal?
    Mr. Arensmeyer?
    Mr. ARENSMEYER. Well, there is no question that we have got 
a major problem facing us, and we need to take dramatic action. 
We have not studied the details. I am not even sure there is 
that sort of a document so I cannot say that we would support 
everything in it. But we definitely support the concept. And I 
think what is important to remember is that as we figure out 
how to reduce our carbon footprint and create more renewal 
opportunities, there are business opportunities. And many of 
those business opportunities are available to small businesses. 
So we would like to see as part of a--and yes, there does need 
to be a comprehensive effort to deal with this--we would like 
to see making sure there is a role for entrepreneurship and for 
new technologies and for new opportunities for business which 
we think can create a whole new generation of jobs in this 
country.
    Mr. CHABOT. Ms. Parsons, inclined to be for it or opposed 
to it?
    Ms. PARSONS. I am inclined to be for it. Obviously, there 
are not the details necessary, but I----
    Mr. CHABOT. Let me just stop you there. And Mr. Conklin, 
because I have only got limited time, I have got other 
questions.
    Mr. CONKLIN. Sure. Yes.
    Mr. CHABOT. Inclined to be for or against?
    Mr. CONKLIN. For.
    Mr. CHABOT. Okay. Mr. Sullivan?
    Mr. SULLIVAN. Congressman Chabot, the U.S. Chamber of 
Commerce issued a very strong statement opposing the Green New 
Deal. I would like to submit that to the Committee with your 
permission.
    Mr. CHABOT. Yes, absolutely. We would welcome that.
    Let me go back to you, Mr. Sullivan. The 2018 surveys 
relative to small businesses recorded really record-breaking 
levels of optimism among small business owners. Are there a 
couple of things that you would attribute that to, or what is 
your opinion on that?
    Mr. SULLIVAN. Thank you, Congressman Chabot.
    We think that there was a significant change in the 
attitude of small business on whether or not Washington, D.C. 
was wind in their face or wind in the back, and in 
particularly, this administration's attention to regulatory 
relief, red tape relief for small business. We believe that is 
the single most ingredients that has caused small business 
optimism to be as high as it has been over the last year and a 
half.
    Mr. CHABOT. Okay. Thank you.
    Let me follow up. Some of the other witnesses, one in 
particular, indicated that the Tax Cuts and Jobs Act was not 
helpful. In fact, not putting words in their mouth, but just 
basically went to the wealthy and not others. What is your 
opinion relative to how small businesses were affected, either 
positively or negatively as a result of that legislation?
    Mr. SULLIVAN. Thank you for the question, Congressman.
    First of all, with regard to our quarterly survey, when we 
surveyed small business owners when tax cuts were passed in 
late 2017, their optimism spiked. So that had raised the 
highest optimism levels that we have seen, and I think that is 
echoed by the monthly confidence survey that was issued by 
NFIB. So the initial passage was a huge boost to small business 
confidence. What we have seen since then is a steady stream of 
small businesses who have told us that they have reinvested 
savings from tax cuts into growing their businesses. And with 
the Congressman's permission, I have a list of 612 of those 
companies over the past year who are willing to be very public 
about the reinvestment that has occurred because of the tax 
cuts. So we were very favorable of the tax reform and the 
statements by small businesses from the past year backup our 
support.
    Mr. CHABOT. Thank you very much.
    Madam Chair, I would ask that those, by unanimous consent, 
be part of the record.
    Chairwoman VELAZQUEZ. Sure. Without objection.
    Mr. CHABOT. Thank you very much.
    And I have only got a little bit of time left, but 
workforce came up by a couple of the witnesses, and I know that 
when I go around my district that is one of the first things 
that the small business folks, or even medium business or even 
large talk about how tough it is to find good, qualified 
people.
    Real quickly, Mr. Arensmeyer, is that something that you 
think is a real challenge? Or what can we do about it?
    Mr. ARENSMEYER. Absolutely it is a real challenge. And we 
need to have policies that encourage--first of all, there is a 
labor shortage now in this country, so we need to have 
immigration policies that recognize this and recognize the 
tremendous value that immigrants bring to our economy. And we 
need to need to make sure that we are matching the skills of 
employees with the needs of small business owners. We found 
this particularly in the rural study we just did where there 
was even a bigger gap in rural areas between the needs of small 
businesses and the population.
    Mr. CHABOT. Thank you very much.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now I recognize Representative Andy Kim, Chairman of the 
Subcommittee on Economic Growth, Tax, and Capital Access for 5 
minutes.
    Mr. KIM. Great, thank you.
    I am very honored to be on this Committee and be able to 
look out for small businesses across my district, across New 
Jersey, and across the country.
    Small businesses are the lifeblood of both Burlington 
County and Ocean County where I reside, and we are very much 
focused on what we can do. And as I have gone around both 
counties and talked with business owners and talked with other 
entrepreneurs, what comes up often is our concern in New 
Jersey, and I am sure in a lot of other places about our young 
Americans, especially coming out from schools, we are worried 
about brain drain and other issues of that as we have seen an 
exodus out from New Jersey.
    So I wanted to just focus on that in two ways. First, with 
regard to student debt and the huge amounts of problems that 
young Americans face with regard to the debt that they carry, 
how does that impact--I wanted to ask Mr. Arensmeyer about 
this. I wanted to ask, you know, what can we do to try to help 
alleviate these issues, to help entrepreneurship with younger 
Americans while they are still dealing with student debt? Are 
there any particular ideas that come to your mind?
    Mr. ARENSMEYER. Thank you, Congressman.
    We actually did a poll 1-1/2, 2 years ago of millennials, 
and we found that almost half of them say that their student 
loan debt has been an impediment to them considering starting a 
business. I mean, that is huge. I mean, this is a new 
generation of Americans, new generation of people who we want 
to continue to start small businesses. So figuring out how to 
get some kind of student loan debt relief is absolutely 
essential to making sure that we foster the next generation of 
entrepreneurs.
    Mr. KIM. Thank you.
    In addition to making sure we can foster the 
entrepreneurship and the start of small businesses, I think a 
number of you also talked about the workforce developing and 
making sure that we are bringing in top talent in terms of the 
employees of these small businesses. So I wanted to ask Mr. 
Sullivan and Mr. Conklin to just go into this a little more. I 
had some very good meetings yesterday with different community 
college leaders and others that had been talking about this, 
and in New Jersey, trying to find ways to strengthen that 
pipeline between colleges and universities and training centers 
to small businesses in particular. And I wanted to ask you if 
you had any lessons learned or any good examples from around 
the country that, you know, we certainly might be able to draw 
upon in New Jersey and elsewhere and we on this Committee might 
be able to use and replicate to be able to strengthen that 
pipeline.
    So Mr. Sullivan, why do we not start with you?
    Mr. SULLIVAN. Thank you, Congressman.
    So at the Chamber, we are really very proud of our 
Foundation that has what is called a Talent Pipeline Management 
Program. Really, the fundamental idea here is to connect the 
business community and what they need with what the workforce 
training centers are training the eligible employees. There has 
been a disconnect in many communities where the workforce 
process is teaching things the local community does not need. 
So something as simple as connecting the need with the training 
has actually gone very far. And this is a program that is 
basically open sourced from our Chamber Foundation to local 
communities through their workforce centers, through local 
chambers of commerce, and other employer organizations. So I am 
happy to share with the Congressman a more detailed explanation 
of our Talent Pipeline Management program, but it is an 
exciting initiative that we believe will go far in addressing 
the workforce issue.
    Mr. KIM. Great. Thank you. I certainly would love to follow 
up with you and learn some more about that. So let us talk 
offline.
    Mr. Conklin?
    Mr. CONKLIN. Yes. Thank you, Congressman.
    Well, we have a member in Oregon who worked with others in 
his industry, the auto repair industry, to set up an 
apprenticeship program. They linked with local high schools and 
they replicated a program that existed when I was in high 
school. And that was a part-time apprenticeship, part-time 
school curriculum day for kids who were interested in 
particular trades. It was pretty much limited to the auto trade 
when I was a kid. I have heard of similar programs that involve 
electricians and plumbers. That is a pretty basic approach, but 
you first have to convince people that that is a path they want 
to follow. And we have a cultural disconnect between the 
reality of what is happening on the shop floor, say at Foley 
Waite and what we are preparing people for and encouraging them 
to follow. Part of it is that I do not think people understand 
how well you can do in the trades. You can do very well in the 
trades. You could have a great career in the trades. But we are 
not really encouraging people, and people, kids particularly do 
not seem to be particularly interested in pursuing it. There is 
some work involved and that is something that I think is a 
little discouraging, and there is some work involved in making 
it happen.
    Mr. KIM. Great. Thank you so much.
    I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And I recognize the gentlelady from American Samoa, Ms. 
Amata Radewagen, Vice Ranking Member with the committee for 5 
minutes.
    Ms. RADEWAGEN. Talofa, and good morning.
    I want to thank you, Chairwoman Velazquez, and Ranking 
Member Chabot for holding this hearing. And I want to thank all 
of you for testifying today.
    I am honored to serve on this Committee, as strengthening 
and diversifying the economy through the growth of small 
businesses of American Samoa. It is one of my biggest 
priorities.
    Like the rest of the country, small businesses make up the 
majority of the businesses in my home of American Samoa. 
Unfortunately, due to the remoteness of American Samoa, it is 
difficult for my constituents to receive the technical 
education to grow their businesses, although our SBDC is doing 
a great job to raise awareness of their services.
    One of my main concerns is a lack of microlending in 
American Samoa. I have seen microlending in neighboring 
independent Samoa and it has met with great success. I look 
forward to working with you all over the next 2 years to 
continue to grow America's small businesses.
    Now, Mr. Arensmeyer, my question is for you. How can 
existing entrepreneurial development resources, such as Small 
Business Development Centers, Women's Business Centers, SCORE, 
or Veterans Business Outreach Centers better tailor their 
programs to meet the needs of underserved businesses?
    Mr. ARENSMEYER. Thank you. And absolutely, there are some 
great programs out there. We work very closely with the SBDCs, 
with the Women's Business Centers, with SCORE, with veterans' 
groups. And I am glad to hear that in American Samoa there is a 
thriving SBDC. We need to get those resources in the hands of 
people. A lot of times small business owners, they maybe think 
they need capital but they are not ready for it or they need to 
do some things to fix their credit. They need to maybe come up 
with a business plan to better understand where they are going 
before they actually get credit, and those organizations can be 
very useful and we spend a lot of our time connecting small 
business owners with those organizations. So, I do not know, I 
am guessing the Rural Microentrepreneur's Business Program 
applies to American Samoa, I am not sure, but that is a program 
that we definitely think needs to be strengthened. And we do 
need to continue to connect businesses with those resources 
that are out there.
    Ms. RADEWAGEN. Thank you, Madam Chairman. I yield the 
remainder of my time.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    And now I recognize the gentleman from Maine, Jared Golden, 
Chairman of the Subcommittee on Contracting and Infrastructure 
for 5 minutes.
    Mr. GOLDEN. Thank you. Thank you, Madam Chair.
    Mr. Sullivan, I thought we would talk a little bit about 
infrastructure. You expressed some interest in that.
    If this Committee were going to work, let us say, with the 
Transportation Committee or even work independently on our own, 
what would your members of the Chamber look for, particularly 
let us talk about ones from rural communities, like a state 
like Maine and very small businesses. You know, would they put 
the priority on something like broadband? Would they put it on 
rail development? Would they put it on just straight roads and 
bridges? And as a follow up, if you could also talk a little 
bit about how would we ensure that an infrastructure package 
truly got down to small businesses and into rural communities, 
thinking about maybe specific provisions that would ensure that 
it does not just go to the states that maybe have more money or 
bigger companies that have more resources for things like 
matching fund requirements or other provisions.
    Mr. SULLIVAN. Thank you, Congressman, for the question.
    So the threshold answer to your question is that small 
businesses are hugely enthusiastic about infrastructure reform, 
which I cannot overstate the optimism that our members have 
with Congress coming together in a bipartisan way on this 
issue. That is not normal these days, and because 
infrastructure does have such a bipartisan enthusiasm, that has 
made small business owners who I speak with very optimistic.
    We had a conference on this topic just last week. I was 
told it was the first time ever we had a small business panel 
as part of this conference. And their answer to your question 
of which need do we address was ``all of the above.'' And I 
mean, that gets at the beauty of this Committee and the beauty 
of Congress, is that you all have small business communities 
who want different things. But the constant throughout is that 
infrastructure is absolutely crumbling. What we heard last week 
primarily were the traditional things of roads and bridges 
because you have this kind of, this duality. On the one hand, 
small business owners cannot get to their jobs, whether it is a 
bad road or a damaged bridge, that is curbing their ability to 
get more jobs and make more money and grow. The second part of 
that duality is that these small business owners are convinced 
that when there is that investment nationally, that they will 
receive some of the benefits of infrastructure spending and 
construction. And so as you know, many of the small business 
owners are in that business, and so they have a dual benefit.
    As far as the formula goes, I would love to follow up with 
you and get into some of the more particulars on what we are 
supporting on infrastructure reform.
    Mr. GOLDEN. I would appreciate that. In fact, I think I am 
meeting with one of your counterparts later to talk in depth 
about some of this.
    Mr. SULLIVAN. Thank you.
    Mr. GOLDEN. Thank you.
    If I could, Mr. Arensmeyer, you talked a little bit about 
in your testimony about how we can bring an advantage to rural 
small businesses when talking about opportunity zones. And I 
think you talked a little bit about concerns that it may 
sometimes not benefit small businesses specifically but rather 
sometimes just go towards real estate development, which is 
fine. But I think that we also want to, I mean, the point is to 
create jobs. So if you could just talk, maybe expand upon that 
testimony a little bit more.
    Mr. ARENSMEYER. Sure, Congressman.
    There is no question that investing in real estate is 
sometimes easier to figure out, to make happen, to underwrite 
than investing in small business. So what we do not want to see 
happen is have the Opportunity Zones kind of devolve into, you 
know, primarily real estate projects and not enough support for 
actual small businesses. So there needs to be an effort. There 
need to be guidelines--I believe those are still being worked 
on by the Treasury Department--to make sure that actually, a 
good chunk of that investment is going directly to small 
business. We are not opposed to some of it going to real estate 
but we want to make sure that it does not end up being the easy 
way out in terms of underwriting these investments. So we think 
that is critical. And we think it is the legislative intent of 
the bipartisan support that existed for the Opportunity Zones 
from both sides that that be the case.
    Mr. GOLDEN. Thank you.
    Chairwoman VELAZQUEZ. The gentleman yields back?
    Mr. GOLDEN. Yes, ma'am.
    Chairwoman VELAZQUEZ. Thank you.
    Now I recognize the gentleman from Ohio, Mr. Balderson, 
Ranking Member of the Subcommittee on Innovation and Workforce 
Development for 5 minutes.
    Mr. BALDERSON. Thank you, Madam Chair, and the Ranking 
Member for holding this testimony today. Congressman Hern. 
Sorry about that, everybody.
    I see this as an opportunity for members of our Committee 
to plan for the next 2 years and share each of our priorities 
to help lift America's small businesses. In Ohio, we have a 
saying that our state is the heart of it all, and like much of 
small businesses are the heart of the American economy. So I 
look forward to working with all of you and having your input. 
As the Madam Chair said, regarding my position in Workforce 
Development, it is a passion of mine.
    I am going to direct my first question to Mr. Sullivan, and 
I understand that you did not get through all your written 
testimony but I did read your written testimony and I got 
excited when I saw a couple things that you mentioned in there. 
You referenced to Ohio's Common Sense Initiative. Could you 
take a moment to kind of expand on that a little bit, please?
    Mr. SULLIVAN. Thank you, Congressman. It is always good to 
hear that a member of Congress gets excited when they read a 
testimony. So thank you for that first.
    What you were referencing was in the statement talking 
about one of our Small Business Council members, Michael Canty 
in Ohio, and some of his experience with red tape, both 
positive and negative. I will start with the negative, and that 
is something that this Committee is more familiar with than 
most, and that is that any state, local, or Federal mandate is 
going to impact a small business more than a larger business. 
And there are studies that document this, but it just makes 
sense. I mean, I think we are familiar with husbands and wives 
at the kitchen table late at night in early April trying to get 
all of the materials together before they go and see their CPA. 
It just takes more time and time is money compared to a larger 
business that has an accounting department.
    So the negative that Michael Canty describes is just really 
the overwhelming burden of red tape. The positive is that there 
are state initiatives, like the Common Sense Initiative, and 
Federal, like the Regulatory Flexibility Act, that their basic 
premise is (a) one size mandates do not work when it comes to 
small business, and (b) more importantly, that when you involve 
a small business in the development of regulatory policy you 
end up with a great two-for. One, you get a regulatory policy 
that is sensitive to how it impacts small business, and two, 
you actually get buy-in from the small business community about 
what the end product is. And that is really the basic tenet of 
both the Regulatory Flexibility Act and the Common Sense 
Initiative that was done in Ohio. And this is, quite frankly, a 
model that has been followed by many states.
    Mr. BALDERSON. I was proud to cosponsor that piece of 
legislation back in 2009, and I can sit here and tell you that 
the new administration in Ohio is moving forward and we are 
going to make that initiative better. So I look forward to 
working with you.
    I want to talk about the national level and how we can make 
that even better. And you spoke about that. But I look forward 
to discussing it with you in the future.
    I yield back, Madam Chair.
    Chairwoman VELAZQUEZ. The gentleman yields back, and now I 
recognize the gentleman from Texas, Mr. Veasey, for 5 minutes.
    Mr. VEASEY. Thank you, Madam Chair.
    I wanted to ask Ms. Parsons if she wanted to continue to 
expand on her thoughts on the Green New Deal. It sounds like 
you had more that you wanted to say, and I wanted to see if you 
wanted to expand on that. I think that most of us know right 
now that it is not anything concrete and solid. There have been 
some proposals. I believe I have heard the words ``more 
aspirational.'' And so maybe a work in progress. Do you want to 
just kind of expand on what you wanted to say?
    Ms. PARSONS. Yes, thank you. I do.
    As a mother of three kids, climate as obviously a huge 
worry. To have your children--I have got a ninth grader who is 
14, seventh grader who is 12, and a third grader who is 9--they 
are very cognizant of what the future brings. And living in 
Oregon, our climate is going to change. And it will change the 
nature of what it means to live and work in Oregon. We are a 
state that has been dependent on natural resources, wood 
products, trees. Our entire ecosystem will change. And we are 
already planning in Oregon for what it looks like when you no 
longer have evergreen forests. When there is no longer snow in 
most of Oregon. This is the Northwest, so it is an impact that 
is very frightening to the generation of our kids who are 
cognizant. Even my third grader understands what this will 
mean. But for the economy of a state like Oregon, and many 
other states. I mean, I cannot speak to what it is going to do 
in Texas, for instance, although I suspect many Texans will be 
moving up north, but it will impact how people do business and 
traditional businesses in manufacturing, in logging because our 
climate will affect our natural resources. And I think it is 
very important to listen to scientists and develop policies 
that are fact-based.
    Mr. VEASEY. I also wanted to ask Mr.--say your last name 
again?
    Mr. CONKLIN. Conklin.
    Mr. VEASEY. I am sorry. I am having a hard time seeing it 
from here. Oh, thank you very much.
    I wanted to ask you, I think that you had spoken about 
trades earlier and about how there are young people that just 
are not being directed in that area, and they are not being--
they do not know about those opportunities, and for whatever 
reason they are not taking advantage of them. One of the areas 
that have been talked about on this particular subject a lot is 
Germany. And there are two things that occur in Germany that 
are not happening here anymore. There is not as much of a 
stigma attached to blue collar jobs in Germany. One of those 
reasons is because the ratio between what white collar workers 
and what blue collar makers make in Germany, there is much less 
of a discrepancy than there is here in the United States. And 
so there is less stigma attached to those jobs.
    Another issue that I would like for you to touch on, 
including the one that I just mentioned, is also labor unions. 
As you know, the quality and income inequality in this income 
has slipped dramatically with the demise of certain labor 
unions in this country. Of course, everybody knows the story 
about Henry Ford and when productivity went up it was also good 
for the worker. We have seen a decline here in that area with 
the decline of organized labor. Of course, in Germany, and the 
business community and the labor forces, it is my understanding 
they do go at it pretty hard in Germany, but at the end of the 
day, it is a result that has led to better outcomes and quality 
of life for the citizens there. Can you touch on that, please?
    Mr. CONKLIN. Well, I cannot speak with great expertise 
about Germany. I think the contribution that unions made 
through history to the improvement for workers on the shop 
floor has outlasted the strength of their influence in our 
current economy, which on the one hand speaks to the importance 
of that contribution, and on the other hand it speaks to the 
reality of the decline of unions, particularly in the trades, 
and how they interact with small businesses. When we started, 
we were a nonunion shop, and the union shops went out of their 
way to make it as difficult for us as they could. But they did 
not prevail. In fact, over the course of the time that we have 
been in business we have watched the trade unions' portion of 
the work that is done shrink to the point where there just is 
not a whole lot of noncommercial, small scale, high value work 
being done by union workers.
    But I think the larger question is, and it speaks to the 
culture we are in now, we are just not encouraging kids to 
pursue the trades. My employees make $60,000 to $70,000 a year.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    Now, I recognize the gentleman from Oklahoma, Mr. Hern, 
Ranking Member of the Subcommittee on Economic Growth, Tax, and 
Capital Access for 5 minutes.
    Mr. HERN. Thank each of you for being here today. It is 
always good to be on this Committee having been a small 
businessman for 34 years, so it is exciting.
    One of the things I have learned about being up here is not 
every small businessperson thinks the same way and certainly 
the three of you have some different ideologies that I would 
not prescribe to.
    I have had the blessings of starting and growing and sold 
many businesses over the last 34 years, since 1985, starting 
out as a one person shop writing software and growing into 
banking and manufacturing, skilled labor. And Mr. Conklin, you 
are so right. We undervalue the value of skilled labor today 
and technology and welding, C&C machinery, woodworking 
materials. Also, I have been blessed to be involved on the 
banking side, so I have seen the other side of what has been 
impacted in community banks over the last 10 years through most 
recently Dodd-Frank, but just a consolidation of community 
banks where most lending occurs for small business men and 
women. Must of the testimony that I have heard over the last 
couple hearings, I have never heard of the folks offering the 
lending and I probably created more small businesses as an 
individual than anyone. So one of my goals is to figure out how 
we put the resources of where capital can be accessed into a 
reserve or a place where you can find it. So it is interesting.
    But I would really, you know, if you look at the optimism 
in 2016, I think my goal is to keep that optimism going. And I 
think the optimism from small businesses as a whole, as 
identified by the NFIB, is that the government get out of the 
way of small businesses, not get in the way. So that would be 
my goal as we go forward.
    But I want to talk just real briefly from each of certainly 
the three of you all on this end about what you think we could 
do differently as far as access to capital. Briefly if you 
could because I have got like an hour's worth of questions.
    Mr. ARENSMEYER. Thank you, Congressman. We have a couple of 
suggestions in our policy agenda. One is to, I mean, we are 
going for broke here, quadrupling the SBA lending guarantees 
from $250 million to $100 billion a year, to reduce the loan 
guarantee percentages. And to expand the CDFI budget, the 
Community Development Financial Institutions are a tremendous 
source of capital for small businesses across the country but 
they only represent about 1 to 2 percent of all small business 
lending. So we have a bunch of other stuff in our policy 
agenda.
    Mr. HERN. Sure.
    Mr. ARENSMEYER. But those are a few things.
    Mr. HERN. Those are great.
    Ms. Parsons?
    Ms. PARSONS. Yeah. I want to talk about a program that I 
think is fairly innovative in the State of Oregon. I was 
appointed by Governor Kate Brown onto the Oregon Growth Board. 
It is a board that uses a very small percentage of lottery 
money and invests in funds that invest in Oregon businesses 
with a particular focus on equity, diversity, and inclusion. 
And we are really looking at social impact investing. Any 
returns from those investments go straight into the Oregon 
State School Education General Fund, and so it is an experiment 
to say can we take some lottery money and do some innovative, 
social impact investing that puts emphasis on investing in 
funds that help Oregon entrepreneurs and particularly the 
equity diversity party.
    Mr. HERN. If my staff could get that information because we 
have a particular interest in that as well.
    Ms. PARSONS. Great.
    Mr. HERN. Mr. Conklin?
    Mr. CONKLIN. In 1980, when my wife and I had hired I think 
at that point two employees and we were doing more work for a 
construction company across the street and was offering us 
great opportunities to work for some major corporations that 
surround New Jersey, we needed to borrow $5,000 for some 
equipment. It just was not available. Nobody was interested in 
loaning it to us. I think ultimately we leased some equipment 
at a relatively high rate of interest and we got what we needed 
in the most expensive way. And, we got the sense that we were 
pretty much on our own. We are going to have to figure this 
stuff out for ourselves and find the money where we could and 
pay more for it. And that is exactly what happened.
    So when we were talking about how women and----
    Mr. HERN. Mr. Conklin, I am so sorry. We are running out of 
time.
    Mr. CONKLIN. Yeah.
    Mr. HERN. But I would love to get your thoughts.
    I just want to close out with this. I know that when you 
are creating jobs and you are in the business world and you 
have tons of risk, I just want to share with you from both 
perspectives what Dodd-Frank did to community banks. Now, I 
understand the big banks and why it was created, but to 
community banks where we get our resources it was devastating 
because it created a hurdle that you talked about a minute ago. 
Dodd-Frank introduced tons and tons of regulators into the 
system to ensure that there was no discrimination, but what 
they also put in there was a high hurdle to actually take 
loans, whether it was mortgage, expand the mortgage period from 
30 days to about 60 days, but also in a sense of what it did to 
folks who came in with a business plan and no personal wealth 
to create jobs.
    I could tell you a story how I started my first business, 
my true business of mowing lawns when a guy loaned me $100 at a 
bank on a passbook account without any credit. Those days are 
long gone but that is how businesses used to start. Today, to 
your point, you have to have a quarter million dollars to come 
in. If I had that I would not even start the business.
    So thank you all so much for your testimony.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    And now I recognize the gentlelady from Iowa, Ms. 
Finkenauer, Chairwoman of the Subcommittee on Rural 
Development, Agriculture, Trade, and Entrepreneurship, for 5 
minutes.
    Ms. FINKENAUER. Thank you, Madam Chair. And thank you to 
our panel here today. It is great to hear the different 
perspectives and where you all come from.
    But this question is actually to Mr. Arensmeyer, who I had 
the opportunity to see yesterday and had the pleasure of 
getting to speak at the Rural Small Business briefing. I know 
you organized yesterday with the Co-Chairs of the Congressional 
Rural Caucus as well. So thank you for that opportunity, and 
thank you for your testimony today.
    I know you talked about how rural entrepreneurs start 
businesses at higher rates, but also how there are a host of 
challenges facing rural businesses and that the unemployment 
rate is still very high in rural areas. I know one of the 
challenges for rural businesses and farmers is the trade war 
started on Twitter, but also, on top of that we have got low 
broadband deployment and transportation and infrastructure 
issues, along with young people leaving rural America. Or not 
coming back home after they have left to go to college. And I 
look forward to getting to tackle some of those issues, in 
particular on the Rural Development, Agriculture, Trade, and 
Entrepreneurship Subcommittee. But from the small business 
majority's view, what should we be doing to ensure our farmers 
and our rural employees and small businesses can thrive? Were 
there any recommendations? I know, I really appreciate again 
getting to speak yesterday, but also seeing all the young folks 
in that room, and I imagine you all had some very interesting 
discussions and interesting ideas that came out of that. And I 
am wondering if you would be able to share any of that with us 
today about how best we can support rural businesses and our 
farmers.
    Mr. ARENSMEYER. Thank you, Congresswoman. And thank you 
very much for joining us yesterday at the release of our rural 
report. And your comments were very enlightening.
    You have identified some of the issues. I mean, broadband 
is a huge issue. One in four rural entrepreneurs say they do 
not have access to broadband. I do not know if you were still 
around, but one of the people on the panel, one of the New 
Mexico Native American business owners literally talked about 
how she has a home-based business and talked about how she had 
to worry about whether her kids were playing videogames, 
whether her husband was doing work online for her to be able to 
actually get on, and she has a floral business, and make 
orders. So it was kind of an interesting, although not very 
happy story. So broadband is key.
    You know, access to resources is absolutely key. I know I 
sound like a broken record here, but just because of distance, 
a need. Infrastructure is huge. I am glad Tom has talked a 
little bit about that. Not only do small businesses depend on 
infrastructure more than most businesses on sort of a per 
capita basis but there are actually jobs available for small 
businesses getting involved and improving infrastructure. So 
you know, again, I talked about the Rural Microentrepreneurship 
Assistance Program. There are programs out there, but we need 
to do more. And, you know, there is a whole list of suggestions 
in our report. I would be happy to share that with the 
Committee.
    Ms. FINKENAUER. Great, thank you.
    Mr. Sullivan, I wanted to talk to you as well because I 
know in my district we have really active chambers in some of 
our larger towns, and also some in our smaller towns as well. 
Has the U.S. Chamber put together, or could you tell me, you 
know, what could we be doing better working with some of the 
smaller chambers in some of the smaller towns to attract more 
people, especially young people back to the area, fill up those 
Main Streets, and anything that you guys have suggestions for 
or things like that.
    Mr. SULLIVAN. Well, thank you, Congresswoman.
    First of all, let me compliment you on one of the bills 
that you worked on and this Committee passed. I see that you 
sponsored H.R. 246, which was the----
    Ms. FINKENAUER. The long name. Yeah.
    Mr. SULLIVAN. Stimulating Innovation through Procurement 
Act. It is really another example of the bipartisan nature of 
this Committee and how important it is to get that type of 
movement behind bills because then they can get through the 
House and hopefully through the Senate.
    Ms. FINKENAUER. Knock on wood.
    Mr. SULLIVAN. You mentioned local and smaller chambers of 
commerce. Actually, the best part of my job is getting out of 
Washington, D.C., and visiting with these incredible local 
chambers. How do you get more people to them? I do not know 
other than trying to breathe in the same type of optimism that 
this Committee has about entrepreneurship and how government is 
there to help them and not to get in their way. And we are 
trying to do that. But I think your question brings a whole set 
of opportunities for us to work together to kind of ignite that 
type of enthusiasm for local chamber membership.
    Ms. FINKENAUER. Absolutely. I look forward to having those 
conversations. And thank you again to all of you for being 
here. And I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    And now I recognize the gentleman from Florida, Mr. Spano, 
for 5 minutes.
    Mr. SPANO. Thank you so much, Madam Chair, and thank you 
all for being here this morning. I just have a few questions.
    My first question is to Ms. Parsons. My experience as a 
small business owner in the district that I represented for 
several years before I was even involved in public office or 
publicly policy was I was on the chamber board, two chamber 
boards involved in numerous local networking organizations to 
try and keep my business going and growing. And it was not 
until I was elected to office that I first heard about the 
Small Business Development Corporation. So my concern is that, 
and maybe we are doing a better job of that now. I hope so. But 
at that point in time there just was not enough dissemination 
by small business development. And look, they have done a great 
job. I do not mean to disrespect them in any way, but what can 
we do specifically to get the word out in order for it to 
filter down to people on the frontlines out there trying to 
build a small business that will actually allow them to access 
opportunities?
    Ms. PARSONS. Yeah, thank you. That is a great question. And 
my business has worked with SBDCs for over 25 years. We work 
very closely. We have donated millions of dollars of software 
to SBDCs all around the country because we really believe in 
entrepreneurship. But you are right. People do not know about 
it. They call our business and ask for help, and that is not 
what we do. We sell them software and tools, and we always 
recommend, and in fact, on our website, free and public, we 
have an entire directory where people can find their local 
SBDC. And it is a content site that attracts 2 million unique 
visitors. We need more businesses like mine to help and aid in 
this effort because small business development centers have 
free support and free help, and yet the community does not know 
about them. We need community colleges who often house SBDCs to 
also engage in those marketing efforts and to do more to pair 
SBDCs with entrepreneurship classes that they are giving to 
their local communities so that people know that there is free 
support and expertise to help them navigate access to capital.
    Mr. SPANO. Thank you. Thank you so much.
    My next question is for Mr. Sullivan. I had a meeting with 
some constituents, small business owners just last week in my 
office, and they were just frustrated by their inability to 
hire people. They could not find truck drivers, other kind of 
nonskilled labor positions. And they are not in the ag 
business. Right? So the season guest worker program will not 
help them.
    My question is should we open up or expand our guest worker 
program, right, so that our small businesses will have the 
access to the labor that they need?
    Mr. SULLIVAN. Congressman, thank you for the question.
    The simple answer is yes. Our immigration system is 
completely broken and small businesses are hurting because of 
it. I tried to detail out in my written statement the story of 
Dick Cardew. He produces hay and folks unfortunately then 
categorize that as kind of the need for seasonal workers. Well, 
he is producing hay in Arizona. It is a yearlong season, and he 
needs workers. And there are hundreds of other examples like 
this. And so we are with you and we want to work with you to 
pass comprehensive immigration reform through Congress.
    Mr. SPANO. Thank you. I yield back, Chair.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    I now recognize the gentleman from Illinois, Mr. Schneider.
    Mr. SCHNEIDER. Thank you. Thank you, Madam Chairwoman. And 
I want to thank you and the Ranking Member for hosting this 
hearing. I want to thank the witnesses for being here today and 
sharing your experiences.
    This is a critically important issue as others have already 
stated. Small business is the engine that grows our economy. It 
creates the majority of the new jobs. It is where the majority 
of Americans find their work. And if we are going to strengthen 
our communities, whether it is urban communities or communities 
in rural, small business is going to be key to that.
    And when I think about business, and I have said this for 
years, there are four key pillars that business success depends 
on. One we cannot really help with. You guys have to come up 
with your own business idea. That is up to you and that model, 
that paradigm, whatever buzzword you want to use is what is 
going to help propel you to success.
    But where we can make a difference is improving access to 
talent, making sure you have the people you need. Improving 
access to capital. Providing a stable business environment 
which is a stable government that does not threaten shutdown on 
a continuous basis. It is eliminating obstacles and hurdles. It 
is finding ways to reduce complexity, and it is looking for 
ways to find levers to amplify or multiply the work that you 
are doing.
    So my general question, and I will open this up to the 
entire panel is if you can think of three of the things that 
you are concerned about, from health care, infrastructure, 
debt, student loan debt as a piece of it, and one thing that 
would make a difference that we can do that will propel small 
business forward in the country. What would you recommend to 
this Committee? And we will start at the end.
    Mr. ARENSMEYER. Congressman, I want to just address a 
couple issues we have not talked about that much here. I mean, 
there is no one silver bullet but a huge issue is health care. 
And health care is something that has been a tremendous concern 
for small businesses for years. As I detail in my testimony, 
the ACA has actually created tremendous opportunities for 
business owners, business employees, small business employees, 
and self-employed entrepreneurs to access health care. As I 
said, over half of the participants in the marketplace fall 
into those categories. We absolutely have to shore up, we have 
to reduce the market risk. I talked about some of the issues 
there of eliminating some of these short-term plans and 
association business plans that are sort of balkanizing the 
market and leaving the rest of the market much more expensive 
and less stable. There is a functioning small business market 
now and it has gone up. The increases in the market have gone 
up half of what they were going up before the ACA. So there is 
no reason to start creating new markets out there. We should 
support the markets that exist. We obviously have to get 
control over drug prices and other out-of-network prices. I 
just want to----
    Mr. SCHNEIDER. I do not mean to cut you off but we are 
limited in time.
    Ms. Parsons, if you could opine.
    Ms. PARSONS. Yeah, there are so many things that I would 
like to say but I will keep it to urging you to support the 
Family Act, which will provide paid leave for all small 
businesses. One of the things that I think people do not 
necessarily understand is one of the biggest problems small 
businesses have, and I am not talking about the SBA definition 
of 500 employees or less, I am talking about micro small 
businesses, 20 employees or less, is the infrastructure, 
resources, and tools to understand how to do better financial 
analysis which big businesses have. They have analysts and 
planners and they can understand how to structure their 
financials and provide paid leave. The economics are there. 
Paid leave will return to the small businesses because they 
will retain their workers. People have to choose right now from 
do I take care of my sick child or do I keep my job? And at the 
end of the day you are not going to make that choice. You are 
going to take care of your sick child. So----
    Mr. SCHNEIDER. All right. Thank you. I am sorry to cut you 
off.
    Mr. Conklin?
    Mr. CONKLIN. I would say both my predecessors covered some 
of the important issues so I will go back to the Green New 
Deal.
    We have a 13,600 square foot flat roof in a neighborhood of 
buildings that are similarly structured. It is absurd to me 
that they are not all covered with solar panels. We could 
produce more energy off our roof than we consume, and we 
consume quite a bit of energy. We need to have imaginative 
programs put in place very quickly that make it affordable for 
companies like mine to actually do that work. And sometimes 
that means the company has to put a new roof on the roof before 
it can put the solar panels on the roof. We need to be really 
imaginative about this and we really need to hit it hard.
    Mr. SCHNEIDER. Thank you.
    And if I can indulge one last, Mr. Sullivan, last word.
    Mr. SULLIVAN. I will try to be really quick.
    I think the biggest thing that you can do is really build 
on the success of this Committee going forward. Work with your 
colleagues in the Education and Labor Committee and celebrate 
the examples that are going on right now. I mention the Tapani 
sisters in Minnesota, for instance. Celebrate what is working 
to solve this workforce challenge and celebrate it loud and 
proud through your work with those Committees so that you can 
inspire others to follow in their footsteps.
    Mr. SCHNEIDER. Thank you. And I will echo that. And I think 
we need policy that is strong, confident, secure that moves us 
to the future that addresses our challenges, whether it is 
environment, health care, education, infrastructure, and small 
business can lead the way.
    And with that I am happy to yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    And now I recognize the gentleman from Tennessee, Mr. 
Burchett, for 5 minutes.
    Mr. BORCHER. Thank you, Chairlady and Ranking Member.
    I had a couple of questions, and I apologize if they have 
been asked before. If they have, you all just say they have 
been asked before and I will go back and watch the tape.
    But ultimately, where do you all find that government is 
still getting in the way of small business? I hear this a lot 
when I am talking to folks. And how can this Committee work to 
solve that problem?
    Mr. ARENSMEYER. Congressman, you know, I think there is not 
sort of one big answer to that question. There are many cases 
where government is needed to help small business. We talked 
about some of those in terms of resources, in terms of 
obviously, you know, you have heard about the FAMILY Act, about 
healthcare needs, about access to capital. On the other hand, 
there are times when government, maybe we should look at 
regulations and we should figure out how to streamline them. 
When we have done polling, we found that fewer than 20 percent 
of small businesses ranked regulatory problems at the top of 
their list. And in fact, the biggest regulatory problems that 
exist are more at the state and local level, particularly the 
lower level. There is not a huge human cry from the businesses 
that we deal with about Federal regulations. So again, I think 
we support the work of the SBA's Office of Advocacy, certain 
laws, the SBREFA process. We are not sure we need another sort 
of comprehensive process on top of that, and we do need to look 
at, and you all need to and the regulatory agencies need to 
look at each regulation, what it is trying to do, what the cost 
benefit is, and not sort of have a global sort of response to 
that.
    Mr. BORCHER. The thing I always found in my time in the 
legislature in Tennessee and as mayor, a lot of the time 
somebody was trying to fix a problem that did not exist and it 
is always easy to put another nickel on a can of beer until all 
your beer drinkers call you and then you know you have got a 
real problem.
    Did anybody else want to take a shot at that one? Chamber?
    Mr. SULLIVAN. Yes, Congressman, I am amazed at the 
government's inability to reward those small business owners 
who are trying desperately to keep up with local, state, 
regional, and Federal requirements. And I think the time has 
come for us to admit that and for Congress to pass a 
comprehensive law that gives these folk a pass. As long as no 
one is hurt or imminently in danger, let us start rewarding 
these small business owners for trying to get it right instead 
of looking to nickel and dime them and penalize them. And they 
are the ones who are trying the hardest to comply with all the 
regulatory mandates.
    Mr. BORCHER. I noticed too the little cafeteria where I eat 
at frequently, Wright's Cafeteria, and my predecessor still 
eats there quite a lot, too, that when the state came in and 
said you all have to submit your tax forms on computers, that 
in fact was an unfunded mandate because David Wright, my good 
friend, he is tight as a tick and he did not want to have to go 
out and buy a computer. And so it was that way all over the 
state. There were a lot of problems that that solution that we 
were looking for created.
    And as new opportunities for small businesses a part of the 
growing economy, is there a skills gap for new types of 
industries? I assume there is. I assume that is a pretty common 
thing. Just a head nod will be sufficient. All right.
    Where do you all see the opportunities for innovation and 
helping train folks that are looking to join the work force? I 
see a lot in our inner city, hardworking black folks and our 
Hispanic community, they just seem to be almost left out of 
some of this stuff and to me it looks like we, you know, one 
size does not fit all. Do you all see that? Any response would 
be appropriate if you would like. Or just a head nod. I do not 
know, Chairlady, do we enter head nods as----
    Ms. PARSONS. I would love to tell you about a program in 
Oregon that is directly addressing by bringing school teachers 
into technology companies. It is called Elevate Lane County, 
and technology companies in Lane County, Oregon, are bringing 
school teachers in. We are volunteering to do this. We have 
them in a program for 3 weeks in the summer. They are paid by 
the Department of Labor to be there and they learn specific 
skills so that they can bring a specific computer science 
course to their high schools that September. So from a 
technology company perspective, it is fantastic because we 
often feel that government moves very slowly and this allows 
something to move very quickly. This summer will be the third 
summer. My company has helped train four teachers, but all 
together we have trained over 40 teachers. And the immediacy of 
being able to train teachers and then provide a computer 
science course and then take those students and bring them in 
as interns, in Lane County, Oregon, we have had six students 
graduate from college and get jobs in computer programming 
directly because of this program.
    Mr. BORCHER. Chairlady, I have gone over my time so I do 
not yield back any of my time. Thank you.
    Chairwoman VELAZQUEZ. The gentleman's time has expired.
    And now I recognize the gentleman from New York, Mr. 
Delgado for 5 minutes.
    Mr. DELGADO. Thank you, Chairwoman. And thank all of you 
for your testimony.
    I am going to share a story from Otsego County. Last week I 
was at an event there and I met with owners of a small, family-
owned farm that was started by two brothers and their wives. 
The family founded the farm in 2010 with a vision to create a 
vibrant food system in Upstate New York that is strengthened by 
a commitment to preserving the beauty of our natural lands and 
the human treatment of animals. They have worked hard to 
deliver grass-fed meat to their customers and have been 
successful enough to have customers in places such as Long 
Island, Pennsylvania, and New Jersey. However, making 
deliveries to their downstate and out-of-state customers has 
not been very easy. Members of the family take turns loading up 
their truck with fresh meat and driving up to 5 hours to meet 
their customers. The cost associated with growth, and in this 
case working with a distributor, has limited the ability of 
many small businesses to expand to their full potential. This 
family-owned business is one of many in my district that has 
great products to offer but faces challenges marketing those 
products to a broader market and meeting the costs associated 
with expansion.
    So Mr. Arensmeyer, my question for you is, in your 
testimony you highlighted some of the unique challenges that 
rural Businessowners often face. What actions should Congress 
take to ensure that existing Federal programs are meeting the 
demand from rural small businesses that are looking to expand 
and move their products into larger markets?
    Mr. ARENSMEYER. Thank you, Congressman.
    That has become a huge part of our work, is making sure we 
are getting out with our entrepreneurship program across the 
country and letting people know about these programs. As I 
think was highlighted by one of your colleagues before, a lot 
of times these programs exist and people do not know about 
them. A gentleman who ran a small business and did not know 
about SBDCs until he got into the public policy world. We find 
that all the time. We find that there are things, SBA programs, 
SBDCs, Women's Business Centers, we need to do a better job of 
communicating those, and it is even more essential in rural 
areas because it is much harder sort of physically to get 
access to those so we need to use technology. We do a lot of 
work with webinars, as well as face-to-face seminars. So I 
would just say that there are Federal, state, and local 
programs and there are entities like SBDCs out there and we 
need to collectively do a better job of making sure small 
businesses know about those.
    Mr. DELGADO. Appreciate it.
    I will ask one other question for you, sir. You mentioned 
in your testimony, I am not sure if someone has already asked 
this, and if I missed it I apologize. You were talking about 
the different ways we could legislatively help small business 
owners, and you mentioned a buy-in to Medicare. I believe you 
referenced that.
    Mr. ARENSMEYER. Yes.
    Mr. DELGADO. Could you speak to why you think a buy-in to 
Medicare would be helpful for small business owners?
    Mr. ARENSMEYER. You know, it creates another option. You 
already have a whole sort of Medicare system set up and 
certainly on a no-cost basis allowing people to buy in we think 
is a good thing. There are a lot of entrepreneurs that fall in 
the upper end of the subsidies where they phase out at 400 
percent of Federal poverty level, which is about a little over 
$50,000 for a single person, about $90,000 for a family of 
four. And they struggle sometimes to be able to cover that, to 
offer that coverage. So we think if there is another option to 
expand into Medicare, let us see how it goes. Maybe you allow 
everybody. Maybe you lower the age to 55 or 50. You know, I 
think, you know, it is no secret. There are all sorts of 
proposals out there around health care. We think the ACA was a 
huge step in the right direction. We still need to have the 
debate about how really to get to universal coverage and what 
is the way to do it, is to start to incrementally move in that 
direction. See what works, what does not work. And create some 
additional options for small businesses who might be struggling 
with existing subsidies.
    Mr. DELGADO. Thank you very much.
    I yield back my time.
    Chairwoman VELAZQUEZ. The gentleman yields back. And now we 
recognize Mr. Stauber from Minnesota for 5 minutes.
    Mr. STAUBER. Thank you, Madam Chair and Ranking Member 
Chabot for holding this hearing. And to the witnesses.
    I, too, am a small business owner. My brothers and I have 
owned a business for 28 years and there are ups and downs and 
struggles. And as my colleague from Oklahoma stated, there are 
some political differences here. I listened to them and the 
partisanship on some of your comments, I do not agree with 
them. But we are going to have a healthy discussion as we move 
forward.
    The small business in my mind, I want to tell you a story 
about what happened in Minnesota just recently. In Ely, 
Minnesota, we have small businesses. They are outfitters for 
canoeists and men and women who want to fish and recreate. The 
United States Forest Service implemented a system after holding 
hearings where these small businesses in Ely, Minnesota, said 
that is not the way we should do it. The U.S. Forest Service 
went ahead, took zero input, the system failed, to get permits 
into the boundary waters canoe area wilderness. Those small 
businesses are backed up now at least a month and some change. 
Every day they do not have customers is a day without money.
    And I look at the Federal Government to listen to our small 
businesses, listen to our chamber of commerces. They are the 
engines of our economy. If we lose our small businesses, every 
time we lose a small business down on Main Street USA or Main 
Street Minnesota, we lose an employer or employee, we lose 
money, we lose the economic drivers of our Main Street.
    And to my colleague sin Maine and Iowa, I fully agree with 
broadband. Bringing the ability to have broadband into rural 
American. We have talked about it for many years.
    And to Mr. Sullivan, from the Chamber's perspective, what 
do you think broadband would do--reliable, high-speed broadband 
to rural America--what do you think it would do to the 
developing small businesses and the entrepreneurship?
    Mr. SULLIVAN. Congressman, thank you for the question.
    First of all, this is part of what we were talking about 
earlier about infrastructure investment. A simple answer is we 
believe that type of broadband deployment would have an 
enormous positive impact on small business. And we are working 
on finalizing a study that would help us put data and figures 
to that sense that we have. And I would be happy to share that 
with you. We expect that to be out in the middle of March.
    Mr. STAUBER. Thank you.
    And then can you reiterate to me what the Tax Cuts and Jobs 
Act did for small businesses in relation to your role as a 
member of the Chamber?
    Mr. SULLIVAN. Sure. So when tax reform passed, we had a 
survey out in the field. This is part of our quarterly survey 
of a thousand small business owners. The survey firm is called 
IPSOS. They do this every quarter. But the tax reform passed 
right while that survey was out in the field and we saw the 
highest spike in optimism that we had ever seen. That same 
spike was recorded by the National Federation of Independent 
Business that has been doing a monthly confidence survey, a lot 
longer than we have been doing our quarterly index. So that was 
the immediate.
    Then what we saw, really, which was what the intention of 
the tax cuts were, and that was to put stimulus immediately 
back into the economy. And so we saw examples like a landscaper 
in Jacksonville, Florida, buying a new landscaping truck.
    I grew up just outside of Boston. We had a bakery in 
Braintree, Massachusetts who bought a new oven specifically 
from the savings from tax cuts. And I had mentioned earlier, we 
have been trying to track this on a map, and we have hundreds 
of examples of small business owners that not only were 
grateful but they took those tax cuts and they reinvested them 
into their businesses. And that means hiring new employees. 
That means providing greater benefits, greater training, and 
also buying new equipment, which is basically a double impact 
because they are generally buying it from other small 
businesses.
    Mr. STAUBER. Thank you for that comprehensive answer.
    I want to end, Madam Chair, by saying I really think it is 
our role on this Committee to facilitate a business environment 
that allows small businesses to succeed and flourish, and I 
think far too long there have been rules and regulations put 
forth that stymie, stop, or do not allow an individual to want 
to pursue small businesses.
    And I see my time is up. Thank you, Madam Chair.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    And now we recognize the gentlelady from Pennsylvania, Ms. 
Houlahan for 5 minutes.
    Ms. HOULAHAN. Thank you, Madam Chairwoman.
    My name is Chrissy Houlahan. I am a freshman. I have only 
been here just about 35 days but I have been a serial 
entrepreneur in Pennsylvania, built a number of different 
companies in the for-profit and non-profit space focused on 
basketball apparel and manufacturing, all the way to early 
childhood literacy, all the way to corporate social 
responsibility. So fundamentally, I consider myself to be an 
entrepreneur and very much about elevating small business 
people.
    My questions have to do with the Tax Cut and Jobs Act, and 
specifically I would like to dig in a little bit on the data 
that you, Mr. Sullivan, shared about your surveys. What I am 
interest in, because I am also an engineer, is sort of the 
inverse of your offering. You offered that 600-plus businesses 
said that they initially had positive reaction or experiences 
because of this tax cut. Were there several hundred or any that 
responded in the negative, or did you ask them?
    Mr. SULLIVAN. Thank you for the question, Congresswoman.
    So first of all, they are two separate things. First, the 
survey that we talked about is part of a quarterly index, and 
this index does what most indexes do. It asks small business 
owners in a random sample on a quarterly basis how did you do, 
how are you doing, and how do you think you are doing? And in 
that we saw an enormous spike.
    Ms. HOULAHAN. Great. But I am asking about those 600 that 
you offered for the record that had specific----
    Mr. SULLIVAN. That is the second part.
    Ms. HOULAHAN. Okay.
    Mr. SULLIVAN. I said there were two parts to it. So first 
is the survey. The second part are these small business owners. 
We tracked newspaper reports and others who came to us and said 
we would like to publicize our reinvestment. But no, we did not 
ask small business owners, did you experience a negative impact 
from taxes? No, we did not.
    Ms. HOULAHAN. Thank you. And my next question has to do 
with, of those 600 who responded, you mentioned that you had 
the geography of them, can you, if you are able to, talk into 
California, New Jersey, New York, Pennsylvania, those states 
that are the state and local tax states that may have not 
necessarily been as positively affected? Could you on a heat 
map identify where those 600 were?
    Mr. SULLIVAN. We actually do have a heat map up online. It 
is uschamber.com/tax-reform.
    Ms. HOULAHAN. Perfect.
    Mr. SULLIVAN. And I am happy to get you the state-by-state 
data following this hearing.
    Ms. HOULAHAN. That is perfect.
    And my final question has to do with I was, and still am, 
that person who sits at the table with my husband doing taxes. 
Between us we have several degrees and have a very hard time 
getting through it. And I know that businesses sometimes have 
different fiscal years than an April reporting timeframe. But 
have you had the opportunity to ask the question again of those 
business owners, those small business owners after the first 
tax cycle that they have gone through if they are still as 
enthusiastic about the Tax Act?
    Mr. SULLIVAN. So we are right in the middle of that cycle, 
and I am glad that you raised that because taxes have always 
been complex, and whenever there is a change to the Tax Code it 
becomes more complex. We reached out to a lot of CPAs. We 
actually found that the local chambers and CPAs who were 
leaders in those local chambers had the best sense of how their 
clients, who are also small business owners, were doing. We 
have heard mixed reactions and we are really anxious in this 
tax season, which is a month and a half away from us, on seeing 
the data coming back. We are optimistic. We saw positive 
reviews over the past year but this tax season I think will 
give us a lot of valuable data on what we need to do even more 
to reduce tax burden to help small businesses grow.
    Ms. HOULAHAN. I am going to be interested in it, too, 
because I think that it will be very telling as we come through 
one cycle of this to see if really people remain as enthused as 
they were initially.
    And in my last minute of questioning, if you do not mind, 
Mr. Conklin, I know that your testimony had something to do as 
well with the inverse, which was that you would like to see the 
Tax Cut and Jobs Act, in some cases I believe your testimony 
said repealed. And I just would like your comments and 
perspective on that.
    Thank you so much, Mr. Sullivan, for your testimony.
    Mr. CONKLIN. Yeah. First, it had no impact on us, positive 
or negative. It was neutral. And that came straight from my 
accountant. I cannot give you the specifics or the details.
    My point is when we give these tax breaks to large 
corporations and to the very wealthy, and I work for the 
wealthiest people in the world and that is not hyperbole. We 
are depriving the community where I work of the necessary 
revenues to maintain the roads, to rebuild the tunnel under the 
Hudson River that when it finally fails and collapses will be a 
national disaster and will put 800,000 cars on the roads of New 
York, New Jersey, and Long Island, and create one of the 
biggest log jams that has ever occurred in commerce.
    So going back to a question that was asked earlier about 
delivering goods and services, yeah, we can create some real 
problems by starving the government and starving our 
communities of necessary revenue to do the maintenance and 
upkeep.
    Ms. HOULAHAN. Thank you very much for all of your testimony 
and for coming here today.
    Chairwoman VELAZQUEZ. The gentlelady's time has expired.
    And now we recognize Ms. Davids from Kansas for 5 minutes.
    Ms. DAVIDS. Thank you, Chairwoman.
    Well, I am excited to hear and read about all the 
priorities, and thank you to you all for taking the time to put 
together your testimony.
    Like so many of the folks who have already spoken, and this 
is a great segue, Mr. Conklin, because I sit on the 
Transportation and Infrastructure Committee as well, and there 
certainly are a lot of intersections, pun intended, to the 
points that you all are making about how small business can be 
buttressed, supported, and see an increase if we are properly 
investing in our infrastructure. And you know, I mean, in 
Kansas, we are actually coming off of the Brown Bag Tax 
Experiment and have seen a reduction in revenue, so I 
appreciate your comments, Mr. Conklin.
    We are in the middle of a new administration. Laura Kelly 
came out almost immediately, our new governor, talking about 
the need to invest in our infrastructure, and I was 
particularly excited to be on this board because the Kansas 
City metro area, the district that I am in, the Third District 
in Kansas, particularly, we have entrepreneurship baked into 
the DNA of the place that we are in. We have got great 
organizations like the Kauffman Foundation, which supports a 
lot of initiatives that you all have been talking about. And 
Kansas has 13 SBDCs, Small Business Development Centers, and 
Ms. Parsons, I was really excited to hear you talking about 
Johnson County Community College--I am going to mention them--
about the role that community colleges can play in highlighting 
and elevating SBDCs. But also, Mr. Conklin, it goes to some of 
what you were talking about, about the technical trades. 
Johnson County Community College and Kansas City, Kansas 
Community College were just here visiting with me, telling me 
about those exact programs. So I want you to know it is not 
falling on deaf ears.
    But Mr. Sullivan, I would like to ask you a question that 
touches on the infrastructure piece, which is can you talk a 
little bit about, in your testimony I know that you mentioned 
that you all just had, you know, an extensive set of meetings. 
The infrastructure portion was kind of the shortest section in 
your testimony but I think it might be because you all were 
just having this meeting. Could you talk to us a little bit 
about the areas that infrastructure can play a pivotal role in 
small business?
    Mr. SULLIVAN. Thank you, Congresswoman. I apologize for 
giving short thrift. I have with me the 35-page booklet of U.S. 
Chamber priorities.
    Ms. DAVIDS. I thought there might be something.
    Mr. SULLIVAN. I had to cut somewhere.
    The conference that I referenced last week was the U.S. 
Chamber's kind of kickoff to what we see as a huge push to get 
infrastructure legislature moving. And I do not mean to pass 
the baton back to you, but we are convinced that if legislative 
text is not moving before the summer, then we are going to be 
in a lot of trouble. So that is kind of the setting that came 
out of last week's conference. And it was encouraging to hear 
from your colleague that our infrastructure team is up here on 
Capitol Hill meeting with you all and trying to map out some of 
the details.
    As far as small business goes, I had mentioned earlier that 
we see really a two-part benefit when it comes to 
infrastructure investment. The first is that it makes it easier 
for the small business owners to get to their jobs and to get 
new jobs. I call it eliminating the hassle factor that is so 
familiar to anyone who has to commute a long way, and then just 
think of that times 100 when you are trying to actually do 
business on those same roads and bridges.
    The second are the small business owners who actually as 
their business do public works projects. We believe that they 
will receive an enormous benefit from jobs and work when 
infrastructure investment becomes a legislative reality in this 
Congress. And again, I do want to emphasize the positive here 
and that is the bipartisan nature of support for infrastructure 
reform. So to the extent that we can follow up with your office 
after this hearing, we are all in, we are all ears, and we want 
to work with you to make it a reality.
    Ms. DAVIDS. Thank you. And I yield back the rest of my 
time.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    I would like to go into a second round.
    Mr. Arensmeyer, I serve on the Financial Services Committee 
and I, too, am concerned about the fintech space as it relates 
to lending for small businesses. I know that you have done some 
research. In terms of rural areas, do you have any information, 
either anecdotally or factual based that tells you there are 
some concerns as it relates to transparency and online lending 
to small businesses?
    Mr. ARENSMEYER. Sure, Madame Chair. You know, there are two 
sides to lending. One is the lack of access. So that creates 
the market need for a greater number of products, and we agree 
you cannot solve the transparency alone and solve the problem. 
We have to deal with the access problem. So we start off in 
rural communities. They have less access to resources, less 
access to loans than other people. And so they are going to 
naturally be attracted to online alternative lenders, 
especially because they are online, so assuming they get 
broadband they are able to access them. And so the Borrowers' 
Bill of Rights that we put together that we think should be 
enshrined in legislation, and we took the first step to that in 
California this last year is, you know, there are six points--
the right to transparent pricing and terms; the right to 
nonabusive products, meaning there is an expectation that the 
loan is going to get paid back out of business revenues, not by 
taking another loan or out of the person's personal pocket; the 
right to responsible underwriting; the right to fair treatment 
from brokers; the right to inclusive credit access; and the 
right to fair collections practices. These are nationwide 
concerns that we have and we really think that the Congress 
should address, particularly the Financial Services Committee. 
But they are particularly concerned in rural areas.
    Chairwoman VELAZQUEZ. Thank you.
    Ms. Parsons, would you like to comment?
    Ms. PARSONS. Yeah, I would. My business serves millions of 
entrepreneurs, and I could make money all day long partnering 
with fintech who does not often seem concerned about the 
effects of the types of loans they are giving small businesses. 
Small businesses and entrepreneurs are sometimes in a position 
where they will take anything, much to the detriment of their 
own business, just the same way personal finance has needed 
regulations so that people do not bankrupt themselves. And I 
very much agree with we need to look at that. We need to give 
small business protection. No one can recover from a cash loan 
that is at a 40 percent interest rate, and it will put the 
business out of business.
    Chairwoman VELAZQUEZ. Sure. Thank you.
    Mr. Sullivan, today's Wall Street Journal says, ``Small 
business sentiment sours.'' So it makes reference to small 
business optimism. And it says that it has declined according 
to figures from NFIB in January, and consumer confidence has 
declined as well for the third straight month of decline. Why 
do you think that is?
    Mr. SULLIVAN. I think that the dip in small business 
confidence that NFIB's monthly survey picked up has to do with 
the lack of certainty in the business environment. I think the 
government shutdown was a shock to the system. I compliment 
this Committee for having a hearing last week that brought that 
shock into reality about what a shutdown means to small 
business. We cannot have government not govern because it does 
affect small business confidence. And I think that is one 
reason.
    I would like to try to give a little bit more of a positive 
though. We did see a Gallup Poll 2 days ago that looks at 
consumers' attitudes towards personal finance. And what they 
found is that actually for the first time in 16 years, 69 
percent of Americans believe they will be better off 
financially at this time next year. So I am a ``glass half 
full'' type of guy. I take some optimism from that survey but I 
will admit, as you pointed out, that confidence has taken a 
dip. Hopefully, we will not have another shutdown and that we 
will continue to see confidence go back up.
    Chairwoman VELAZQUEZ. And it has nothing to do with the 
fact that maybe some small businesses now are focusing on the 
Tax Code and the tax cuts and finding out that some of those 
are temporary, and will not be made permanent for them?
    Mr. SULLIVAN. I think there have also been news accounts 
that echo what you had just said. I think my response is that 
we have a year of information from small business owners who 
have said that they have reinvested savings from tax cuts. And 
so I would much rather rely on that year of testimonials than 1 
week of discussion of whether or not folks are going to get as 
big of a tax refund a month and a half before taxes are due.
    Chairwoman VELAZQUEZ. The gentleman Ranking Member will be 
recognized for 5 minutes.
    Mr. CHABOT. Thank you, Madam Chair.
    I would just note the nonpermanence of those tax cuts were 
a result of the Senate rules, not because of anything the House 
did or wanted to do. We wanted to make them all permanent but 
they have got rules over there that they have to comply with. 
And as in the Bush tax cuts, ultimately, I think most people 
think that the tax cuts for individuals, et cetera, will be 
made permanent. It would be very unpopular not to do that but a 
lot of the statements out there about talking about the rich 
got it or the middle class did not or individuals did not get 
it are based upon assuming that the tax cuts are going to go 
away in 10 years for a lot of people which I cannot imagine 
that that would happen unless we have an extremely 
irresponsible Congress at that time. So I do not expect that, 
although Congress is certainly capable of being irresponsible 
at times.
    Let me, just one question, one final question, Mr. 
Sullivan. A number, some of our witnesses today have talked 
pretty glowingly about the ACA, the Affordable Care Act, or 
what some people refer to as the Unaffordable Care Act, or most 
people over time have referred to it as Obamacare, but that is 
what we are talking about here. So pretty glowingly about it. 
Now, none other than Bill Clinton famously said that it is, 
referring to Obamacare, said it is the craziest thing in the 
world. People's premiums have doubled and they are getting half 
the coverage. And you talked to, in your position at the 
Chamber and with the Small Business Council, I know you talk to 
a lot of small business folks from all over the country there. 
Has that been your experience relative to Obamacare? Have they 
been pretty big fans of it or have they had real concerns about 
it? Or what do you hear with all the small business folks you 
talk to?
    Mr. SULLIVAN. Thank you, Congressman, for the question. 
Reiterating my attitude of being a ``glass half full'' type of 
person, we actually hear very positive things about the 
availability of association health plans that are just being 
rolled out across the country. There was a study released 2 
weeks ago by a healthcare expert in Nashville, Kev Coleman. And 
he actually talks about the 28 association health plans that 
have been offered through state and local chambers of commerce, 
and also industry associations. And he actually paints a very 
positive picture of this.
    Mr. CHABOT. Not to interrupt you but I know I am. When you 
say association health plans, you are talking about small 
businesses getting together and negotiating with the insurance 
companies to keep the rates down; is that correct?
    Mr. SULLIVAN. Congressman, yes. There was a rule issued by 
the Department of Labor this summer that under the construct of 
the Affordable Care Act, and the pooling arrangements under the 
Affordable Care Act, the Secretary of Labor determined that 
those same types of poolings can be utilized for small 
businesses to join together for better buying power through 
association health plans and our local chambers of commerce 
have really jumped at the chance of offering these. And this 
study actually shows that a sharp rebuttal to some inaccuracies 
about noncoverage of preexisting conditions or skimpy plans, in 
fact, his analysis of these 28 plans showed that they were 
comprehensive and resulted in savings upwards of 20 percent. So 
there are 13 states who are allowing chambers of commerce to 
offer these, one of them being Ohio, and we are encouraged, and 
we hope that this is something that Congress looks at favorably 
and perhaps shines some light into really addressing a key 
issue. I think John Arensmeyer was right that health care is a 
huge issue for small business. I just take a ``glass half 
full'' view that these association health plans are part of the 
equation of solving that challenge.
    Mr. CHABOT. With the little time that I have left I would 
just note that that was one of the aspects that I know 
Republicans were very supportive of was association health 
plans, as well as allowing insurance companies to sell their 
products across state lines so that would increase the 
competition so that consumers, including small businesses, 
could get health care at lower rates.
    And finally, with the 5 seconds that I have got left here, 
to note that we were very much for making sure that preexisting 
condition coverage was there as well, so.
    And I yield back my time even though it has been exhausted.
    Chairwoman VELAZQUEZ. Mr. Golden is recognized for 5 
minutes.
    Mr. GOLDEN. Thank you, Madam Chair. I appreciate it. I know 
that we are bumping up against the end of this but I just 
wanted to follow up a little bit on my earlier questions. I 
want to thank the Chairwoman and the Ranking Member for having 
this hearing. I think it is a great opportunity to sit here and 
talk with small business owners. I want to thank every member 
of the panel for coming in and being a part of this as we look 
forward for what I hope is 2 years of really productive work on 
this Committee.
    But earlier, Mr. Sullivan, we talked a little bit about 
infrastructure. I know you have a lot of members. It is hard to 
prioritize and, you know, you are spread out across the entire 
country, but we cannot always do everything, particularly not 
at once. And I think it is important to push you a little bit 
on it.
    You know, back home when I was in the Maine State 
Legislature, the first thing I did when I got elected in 2014 
was do a small business tour and ask people, you know, what are 
your top priorities? Now, where I come from and the town that I 
represented, at that time they prioritized work force, then 
infrastructure and energy costs, and then they talked a little 
bit about taxes and regulation. It could be different, I know, 
in different areas in different parts of the country, but 
again, just circling back to infrastructure, for the entire 
panel, if you could just, a short answer, specific to rural 
areas and small businesses, if this Committee and the 
Subcommittee that I am going to be chairing, we are looking at 
infrastructure, what would be the area of infrastructure that 
you would prioritize particularly to help spur growth? 
Something like broadband. Is it investment in rail? Just pick 
one. There is no right or wrong answer here.
    Mr. SULLIVAN. Thank you, Congressman for the question.
    My quick answer is that whatever infrastructure bill 
Congress gets moving, which I hope it does, make absolutely 
certain that the user fees go to infrastructure.
    Mr. CONKLIN. I think we need to strengthen public 
transportation. I think in the concentrated areas, the nonrural 
areas, that are often the customers of rural areas, when we get 
jammed up, you get jammed up. Earlier we heard about a person 
who took 5 hours to get something delivered. We are 20 minutes 
from New York with no traffic and 2-1/2 or 3 hours from New 
York when there is traffic and there is always traffic. And one 
of the reasons there is traffic is because there are too many 
cars on the road. And one of the reasons there are too many 
cars on the road is because our public transportation system is 
collapsing. And so these extraneous effects of disinvestment 
and misguided investment have far-reaching effects and they do 
have a direct impact on our bottom line. So that is one of the 
things we really need to focus on.
    Mr. GOLDEN. Mr. Sullivan, you want to get the money to the 
projects. You are saying invest in public transportation 
including in rural areas.
    Ms. Parsons?
    Ms. PARSONS. I would really have to support broadband to 
rural communities. We are failing our rural communities. They 
are falling behind. We are not able to train workers and give 
them access to online education, online tools. The world is 
moving into, you know, technology is what is going to drive 
innovation and we cannot leave rural communities behind.
    Mr. GOLDEN. Thank you.
    Mr. ARENSMEYER. I agree with everything that has been said, 
particularly the broadband into rural areas. I think something 
this Committee has jurisdiction over is we need to make sure 
that when the infrastructure bill is implemented that the 
procurement is focused very much on small business, that the 
small business rules are followed, the women-owned business 
rules are followed. You know, that is a great source of growth 
for entrepreneurship in all of our communities and this 
Committee can really take the lead in making sure that those 
contracts are focused on small businesses, making sure that 
small businesses, and particularly women and minority-small 
businesses are at the center of that, and rural-owned small 
businesses in rural areas. So I am not sure. You know, there 
are a host of projects that need to happen, broadband, and then 
a lot of physical projects but we would like this Committee to 
make sure that they track the procurement on that.
    Mr. GOLDEN. Thank you. I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Mr. GOLDEN. Thank you, Madam Chair.
    Chairwoman VELAZQUEZ. Well, let me take this opportunity to 
thank all of you for being here today and helping us craft a 
small business priority going forward. Small businesses are 
critical to the success of our country, whether it is the small 
technology startups or advanced manufacturing, these firms 
generate tremendous economic activity and provide employment 
opportunities for our communities. As we move forward in this 
Congress it is critical that we listen to and prioritize their 
needs to ensure their future success.
    I would ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 1:09 p.m., the Committee was adjourned.]
                           
                           
                           A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
